/~
\. -f
                DEPARTMENT OF HEALTH &
                DEPARTMENT           & HUMAN SERVICES
                                       HUMN SERVICES                                                    OFFICE
                                                                                                        OFFICEOF

                                                                                                         Offce
                                                                                                               OFINSPECTOR
                                                                                                                  INSPECTORGENERAL

                                                                                                         OfficeofofAudit
                                                                                                          Public Ledger
                                                                                                         Public
                                                                                                                           GENERAL

                                                                                                                         Services, Region m
                                                                                                                   AuditServices,
                                                                                                                        Building,Suite
                                                                                                                 Leger Buildi,
                                                                                                                                          m
                                                                                                                                  Suite316

                                                                                                                                       316
-....,.8'-                                                                                               150
                                                                                                          150 S. Independence Mal
                                                                                                                              MallWest
                                                                                                                                  West
                                                                                                         Philadelphia,
                                                                                                         Philadelphia,PA
                                                                                                                       PA19106-3499
                                                                                                                          19106-3499


                                                                  SEP 2222009
                                                                  SEP   2 2009



             Report Number: A-03-08-00011
             Report         A-03-08-00011

             Jennifer Velez,
             Jennifer Velez, Esquire
                             Esquire
             Commissioner
             Commssioner
             New Jersey
             New  Jersey Department
                         Deparment of ofHuman
                                        HumanServices
                                              Services
             222 South Warren
             222                Street
                        Waren Street
             Trenton, New
                      New Jersey
                           Jersey 06825-0700
                                   06825-0700

             Dear Ms. Velez:

             Enclosed is the
                         the U.S.
                             U.S. Department of Health
                                  Deparment of  Health and
                                                       and Human Services
                                                                 Services (HHS),
                                                                          (HHS), Office of
                                                                                        of Inspector
                                                                                           Inspector
             General (OIG), final report entitled "Review of Medicare Part                               D Drug
                                                                                                     Par D Drug Payments
                                                                                                                 Payments to
                                                                                                                          to Baron
                                                                                                                             Baron Drug
             Company
             Company          forDates
                     for Service    Service
                                       Januar 1- Dates     January
                                                 March 31, 2006." We wil 1-    March
                                                                         forward a copy of 31,
                                                                                           
   2006." We will forward a copy of ths
                                                                                                                                this report

                                                                                                                                     report
             to the HHS action official noted           noted on the following page for review and any action deemed
             necessary..
             necessar

             The HHS action official will  make final
                                       wil make   final determnation
                                                        determinationas
                                                                      astotoactions
                                                                             actionstaken
                                                                                     taken on
                                                                                           on all
                                                                                               all matters
                                                                                                   matters reported.
                                                                                                            reported.
             We request
                 request that
                         that you
                              you respond
                                   respondtotothis
                                               ths official
                                                   offcial within 30 days
                                                                     days from
                                                                            fromthe
                                                                                  thedate
                                                                                      dateof
                                                                                           ofthis
                                                                                              ths letter.
                                                                                                   letter. Your
             response should present any comments or additional information that you believe may have a
             bearing
             bearng on the
                        the final determination.
                            final determnation.

             Section  8L of
             Section 8L   of the
                              the Inspector
                                  Inspector General
                                            GeneralAct,
                                                     Act,55U.S.c. App., requires
                                                           u.s.c. App.,  requires that
                                                                                  that OIG
                                                                                        OIG post its publicly
             available  reports
             available reports on the OIG Web site. Accordingly, ths report wil posted at
                                 on the OIG  Web  site. Accordingly, this report will  be
             http://oig.hhs.gov.

             If
             If you
                you have any questions or comments about this report,
                                                                  report, please do not hesitate to call me at
             (215)  861-4470 or  through  email at Stephen.Virbitsky@oig.hhs.gov,
             (215) 861-4470 or though email at Steohen.Virbitsky(goig.hhs.gov, or    or contact
                                                                                        contact Nicole
                                                                                                 Nicole Freda,
                                                                                                         Freda,
             Audit Manager,
                    Manager, at
                              at (215)
                                  (215) 861-4497
                                        861-4497or orthrough
                                                       though email
                                                               email at
                                                                     at Nicole.Freda@oig.hhs.gov.
                                                                        Nicole.Freda(goig.hhs.gov. Please refer
             to report
             to report number A-03-08-00011
                               A-03-08-00011    in all  correspondence.

                                                                       Sincerely,
                                                                       Sincerely,


                                                                     /Jl¥- ~
                                                                       Stephen
                                                                       Stephen Virbitsky
                                                                                Virbitsky
                                                                       Regional
                                                                       Regional Inspector
                                                                                 Inspector General
                                                                                            General
                                                                         for
                                                                          for Audit
                                                                              Audit Services
                                                                                    Services

             Enclosure
             Enclosure
Page 22 -- Jennifer
Page                Velez, Esquire

           Jennfer Velez,  Esquire


Direct Reply to HHS Action Official:
Direct                     Offcial:

          Blum, Acting
Jonathan Blum,  Acting Director
                       Director
                 and Health
Centers for Drug and Health Plan
                            Plan Choice
                                 Choice
                        Medicaid Services
                     & Medicaid
Centers for Medicare &           Services
200 Independence Avenue SW
314-G, HHH
314-G,       Building
        HH Building
             DC 20201
Washington, DC   20201
Department of Health and Human Services
             OFFICE OF 

        INSPECTOR GENERAL 





 REVIEW OF MEDICARE PART D

  DRUG PAYMENTS TO BARON 

     DRUG COMPANY FOR 

       SERVICE DATES

 JANUARY 1 – MARCH 31, 2006 





                    Daniel R. Levinson

                     Inspector General 


                     September 2009

                      A-03-08-00011

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                               Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov
                          HU                   U




Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act (MMA) of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug benefit. The Part D benefit provides optional prescription drug coverage for
individuals who are entitled to Medicare Part A or enrolled in Medicare Part B. The Centers for
Medicare & Medicaid Services (CMS), which administers Medicare, contracts with private
entities known as Part D sponsors (sponsors) to provide prescription drug coverage for
beneficiaries enrolled in the Part D program.

Sponsors submit a summary record called a prescription drug event (PDE) record every time a
pharmacy dispenses a prescription for a beneficiary covered under Medicare Part D. The PDE
record contains prescription drug cost and payment data that enables CMS to make payment and
otherwise administer the Part D benefit.

Full-benefit dually eligible beneficiaries are eligible for benefits under both Medicare and
Medicaid. Pursuant to Title I, section 103(c) of the MMA, and upon implementation of
Medicare Part D on January 1, 2006, prescription drug coverage for these beneficiaries was
transferred from Medicaid to Medicare Part D. Despite CMS’s efforts to ensure that these
beneficiaries continued to receive needed medications as they made the transition, some States
found it necessary to provide assistance to these beneficiaries by paying for their Medicare Part
D drugs.

To reimburse States for costs incurred during the transition period, CMS implemented the
“Reimbursement of State Costs for Provision of Part D Drugs” Medicare demonstration project,
pursuant to section 402(a)(l)(A) of the Social Security Amendments of 1967, as amended
(codified at 42 U.S.C. section 1395b-1(a)(1)(A) and expressly made applicable to Part D in
section 1860D-42(b)). On February 14, 2006, New Jersey submitted its “Section 402
Demonstration Application” to CMS. By submitting its application, New Jersey agreed to pay
for full-benefit dually eligible beneficiaries’ Part D drug claims. New Jersey’s participation in
the demonstration project covered drugs dispensed between January 1 and March 31, 2006.

Baron Drug Company (Baron), located in Hoboken, New Jersey, is a retail pharmacy and
surgical supplier. Baron participated in the Part D program and claimed costs for drugs
dispensed to full-benefit dually eligible beneficiaries during the transition period.

OBJECTIVE

Our objective was to determine whether Baron received payment for Medicare Part D drug costs
from sponsors and from New Jersey under the Medicare demonstration project.




                                                 i
SUMMARY OF FINDING

For all 110 sampled claims, Baron received payment both from sponsors and from New Jersey.
Baron billed the sponsors and New Jersey for the same dispensing events. As a result, Baron
received payments from the sponsors who were contractually obligated to pay for full-benefit
dually eligible beneficiaries’ Part D drugs and from New Jersey. Based on our sample results,
we estimated that Baron received improper payments of at least $79,489 from New Jersey, which
CMS reimbursed under the demonstration project.

RECOMMENDATION

We recommend that New Jersey refund to CMS $79,489 in improper demonstration project
payments and recover the payments from Baron.

NEW JERSEY COMMENTS

In written comments on our draft report, New Jersey concurred with our finding, but did not
concur with our recommendation. New Jersey stated that all payments made by New Jersey
under the demonstration project were approved by CMS. New Jersey also stated that the audit
report should be issued to either Baron or to the applicable Medicare Part D drug plan sponsors.
New Jersey added that it does not have the means to adequately identify or correct this type of
duplicate payment. New Jersey’s comments are presented in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

Our audit report identified improper demonstration project payments that New Jersey received.
Although CMS reimbursed New Jersey for the payments made to Baron, CMS did not determine
whether the plan sponsors also paid for the same dispensing events. We recommend New Jersey
refund the payments to CMS because the State of New Jersey, not Baron, received Federal funds
under the demonstration project. We will provide detailed claim information related to our
finding. Nothing in New Jersey’s comments has given us cause to change our recommendation.




                                                ii
                                                 TABLE OF CONTENTS 


                                                                                                                         UPage

INTRODUCTION.............................................................................................................1


          BACKGROUND ....................................................................................................1 

              Medicare Part D Prescription Drug Benefit................................................1 

              Full-Benefit Dually Eligible Beneficiaries .................................................1 

              Medicare Part D Demonstration Project .....................................................1 

              New Jersey’s Participation in the Medicare Part D 

               Demonstration Project .............................................................................2 

              Baron Drug Company .................................................................................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY ..................................................2 

               Objective .....................................................................................................2        

               Scope...........................................................................................................2       

               Methodology ...............................................................................................3            


FINDING AND RECOMMENDATION........................................................................3 


          DEMONSTRATION PROJECT REQUIREMENTS ............................................3 


          IMPROPER PAYMENTS ......................................................................................4                


          RECOMMENDATION ..........................................................................................4               


          NEW JERSEY COMMENTS.................................................................................4 


          OFFICE OF INSPECTOR GENERAL RESPONSE .............................................5 


APPENDIXES

          A – SAMPLE DESIGN AND METHODOLOGY

          B – SAMPLE RESULTS AND ESTIMATES

          C – NEW JERSEY COMMENTS




                                                                  iii
                                            INTRODUCTION 


BACKGROUND

Medicare Part D Prescription Drug Benefit

Title I of the Medicare Prescription Drug, Improvement, and Modernization Act (MMA) of 2003
amended Title XVIII of the Social Security Act (the Act) by establishing the Medicare Part D
prescription drug benefit. Medicare Part D provides optional prescription drug coverage for
individuals who are entitled to Medicare Part A or enrolled in Medicare Part B. The Centers for
Medicare & Medicaid Services (CMS), which administers Medicare, contracts with private
entities known as Part D sponsors (sponsors) to provide prescription drug coverage for
beneficiaries enrolled in the Part D program. Sponsors may offer drug coverage through more
than one drug plan.

CMS pays sponsors monthly prospective payments to provide Part D prescription drug coverage.
These payments are based on estimates that sponsors provide in their approved bids before the
beginning of the plan year. After the close of the plan year, CMS must reconcile these payments
to the sponsors’ actual costs to determine whether sponsors owe money to Medicare or Medicare
owes money to sponsors. Sections 1860D-15(c)(1)(C) and (d)(2) of the Act and 42 CFR
§ 423.322 require sponsors to submit to CMS certain information necessary to conduct these
reconciliations. This information includes summary records called prescription drug event
(PDE) records that sponsors submit every time a pharmacy dispenses a prescription for a
beneficiary covered under Medicare Part D. PDE records contain prescription drug cost and
payment data that enable CMS to pay sponsors and otherwise administer the Part D benefit.

Full-Benefit Dually Eligible Beneficiaries

Full-benefit dually eligible beneficiaries are eligible for benefits under both Medicare and
Medicaid. Pursuant to Title I, section 103(c) of the MMA and upon implementation of Medicare
Part D on January 1, 2006, prescription drug coverage for these beneficiaries was transferred
from Medicaid to Medicare Part D. CMS took numerous actions to ensure that full-benefit
dually eligible beneficiaries continued to receive medications during the transition to Medicare
Part D. Despite CMS’s efforts to ensure a smooth transition to Medicare Part D, some full-
benefit dually eligible beneficiaries did not enroll in or were not assigned to a Part D plan. As a
result, some States paid for these beneficiaries’ Medicare Part D drugs during the transition
period.

Medicare Part D Demonstration Project

To reimburse States for costs incurred during the transition period, CMS implemented the
“Reimbursement of State Costs for Provision of Part D Drugs” Medicare demonstration project
pursuant to section 402(a)(l)(A) of the Social Security Amendments of 1967, as amended. 1 The           F   F




1
 Demonstration provisions are codified at 42 U.S.C. § 1395b-1(a)(1)(A) and expressly made applicable to Medicare
Part D in section 1860D-42(b) of the Act.

                                                       1

demonstration project permitted Medicare to reimburse States for full-benefit dually eligible
beneficiaries’ Part D drugs to the extent that those costs were not recoverable from a sponsor and
were not required Medicare cost sharing on the part of the beneficiary. To participate in the
demonstration project and receive reimbursement for their incurred costs, States were required to
submit a signed “Section 402 Demonstration Application” to CMS.

New Jersey’s Participation in the Medicare Part D Demonstration Project

On February 14, 2006, New Jersey, through two of its agencies, the Department of Human
Services (DHS) and the Department of Health and Senior Services (DHSS), submitted its
Medicare demonstration application to CMS. By submitting its application, New Jersey agreed
to pay for full-benefit dually eligible beneficiaries’ Part D drug claims. 2 New Jersey’s
                                                                                     F   F




participation in the demonstration project covered drugs dispensed between January 1 and March
31, 2006.

Baron Drug Company

Baron Drug Company (Baron), located in Hoboken, New Jersey, is a retail pharmacy and
surgical supplier. Baron participated in the Part D program and claimed costs for drugs
dispensed to full-benefit dually eligible beneficiaries during the transition period.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Baron received payment for Medicare Part D drug costs
from sponsors and from New Jersey under the Medicare demonstration project.

Scope

We judgmentally selected Baron from pharmacies that we identified as having both a PDE
record and a demonstration claim for the same dispensing event. For the period January 1
through March 31, 2006, CMS reimbursed New Jersey $108,540 for 1,600 Baron demonstration
claims that also had a sponsor-submitted PDE record.

Our audit objective did not require an understanding or assessment of the complete internal
control structure of New Jersey or Baron. We limited our internal control review to obtaining an
understanding of the guidance that New Jersey issued to the pharmacies for the demonstration
project and procedures that Baron used to bill sponsors and New Jersey.

We conducted our fieldwork at Baron in Hoboken, New Jersey, in February 2009.


2
 New Jersey also agreed to pay for partial-benefit dually eligible beneficiaries’ Part D drugs; however, payments for
these beneficiaries’ drug claims are not included in this review.


                                                          2

Methodology

To accomplish our objective, we:

   	 reviewed applicable Federal and State requirements;

   	 interviewed Baron pharmacy staff regarding its billing procedures;

   	 obtained from CMS PDE records and demonstration project claims for the period January
      1 through March 31, 2006;

   	 identified a sampling frame of 1,600 PDE records that matched claims paid to Baron
      under the demonstration project and:

           o	 from the sampling frame, selected a stratified random sample of 110 matched
              claims and

           o	 for each sampled claim, requested and reviewed payment documentation from
              applicable sponsors and New Jersey; and

   	 estimated the total dollar value of improper demonstration project payments.

Appendix A provides a description of the sampling methodology and Appendix B details the
sample results and estimates the value of improper demonstration project payments.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATION

For all 110 sampled claims, Baron received payment both from sponsors and from New Jersey.
Baron billed the sponsors and New Jersey for the same dispensing events. As a result, Baron
received payments from the sponsors who were contractually obligated to pay for full-benefit
dually eligible beneficiaries’ Part D drugs and from New Jersey. Based on our sample results,
we estimated that Baron received improper payments of at least $79,489 from New Jersey, which
CMS reimbursed under the demonstration project.

DEMONSTRATION PROJECT REQUIREMENTS

To participate in the demonstration project and receive reimbursement for their incurred costs,
States were required to submit a signed “Section 402 Demonstration Application” (Medicare
demonstration application) to CMS. By submitting Medicare demonstration applications, States

                                               3

agreed to (1) require pharmacies to bill the Part D plan before relying on State payment (i.e., the
State was the payer of last resort); (2) provide specific information to CMS on Part D drug
claims and administrative costs; (3) ensure that claims submitted were for covered Part D drugs;
(4) separate demonstration project claims from those payable under other programs; (5) submit
claims only for drug costs (not including beneficiary cost sharing) and administrative costs
incurred during the demonstration project’s effective dates; (6) report to CMS the number of
claims, beneficiaries, and expenditures on a timely basis; and (7) ensure that Medicare funding
was not used as State Medicaid matching funds (State Medicaid Director Letter No. 06-001
(Feb. 2, 2006); CMS, Section 402 Demonstration Action Template: Reimbursement of State
Costs for Provision of Part D Drugs).

IMPROPER PAYMENTS

For all 110 sampled claims, Baron billed and received payments both from the sponsors and
from New Jersey. Because sponsors were contractually obligated to pay for full-benefit dually
eligible beneficiaries’ Part D drugs, the application required pharmacists to primarily bill the
sponsor and rely on the State only as the payer of last resort. Baron’s owner stated that billing
system errors caused the sample items to be billed to both sponsors and New Jersey.

As shown in Appendix B, Baron received improper payments from New Jersey under the
demonstration project totaling $17,587 for the 110 sampled claims. At the time of our audit,
Baron had not refunded any of the sampled improper payments to New Jersey. Based on our
sample results, we estimated that Baron received at least $79,489 in improper payments from
New Jersey for Medicare Part D drugs dispensed between January 1 and March 31, 2006.
Through the demonstration project, CMS reimbursed New Jersey for these improper payments.

RECOMMENDATION

We recommend that New Jersey refund to CMS $79,489 in improper demonstration project
payments and recover the payments from Baron.

NEW JERSEY COMMENTS

In written comments on our draft report, New Jersey concurred with our finding, but did not
concur with our recommendation. New Jersey stated that the audit report did not indicate that
any payments were not in compliance with the Medicare demonstration project, and that all
payments made by New Jersey under the demonstration project were approved by CMS. New
Jersey also stated that the audit report should be issued to Baron because it acknowledged receipt
of some duplicate payments, or to the applicable Medicare Part D drug plan sponsors because
New Jersey believes plan sponsors made the subsequent, and thus duplicate, payment.
Additionally, New Jersey stated they do not have the means to adequately identify or correct this
type of duplicate payment. New Jersey’s comments are presented in their entirety as Appendix
C.




                                                 4

OFFICE OF INSPECTOR GENERAL RESPONSE

Our audit report identified improper demonstration project payments that New Jersey received.
Although CMS reimbursed New Jersey for the payments made to Baron, CMS did not determine
whether the plan sponsors also paid for the same dispensing events. We are recommending that
New Jersey refund the payments to CMS because the State of New Jersey, not Baron, was the
entity that received Federal funds under the demonstration project. In addition, the State of New
Jersey agreed in its Section 402 Demonstration Application to require pharmacies to bill the Part
D plan before relying on State payment, which made the Medicaid payment the secondary
payment. CMS’s payments to the prescription drug plan sponsors were the proper payments
because prescription drug plan sponsors were contractually obligated to pay for full-benefit
dually eligible beneficiaries’ Part D drugs.

As discussed with New Jersey officials, we will provide detailed claim information related to our
finding.

Based on New Jersey’s comments, we made a minor revision to clarify our report; however,
nothing in New Jersey’s comments has given us cause to change our recommendation.




                                                5

APPENDIXES

                                                                                APPENDIX A
                                                                                  Page 1 of 2


                        SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population represented prescription drug event (PDE) records that matched claims paid to
Baron Drug Company (Baron) under the Medicare demonstration project.

SAMPLING FRAME

The sampling frame was an Excel spreadsheet of 1,600 PDE records, each of which matched a
corresponding claim paid under the demonstration project. The matched claims totaled $108,540
in demonstration project reimbursement.

SAMPLE UNIT

The sampling unit was one individual line item identifying a PDE record matched to a
demonstration project claim.

SAMPLE DESIGN

We used a stratified random sample, defining each stratum by demonstration project
reimbursement amount, as shown below.

                                       Sample Design

                   Reimbursement    Number of     Demonstration Project
                       Range      Matched Claims Reimbursement Amount
         Stratum 1   $499 or less      1,590            $96,060
         Stratum 2  $500 or more          10             12,480
           Total                       1,600           $108,540


SAMPLE SIZE

We selected 100 matched claims from the first stratum and all 10 matched claims from the
second stratum for a total sample size of 110 matched claims.

SOURCE OF RANDOM NUMBERS

The source of random numbers was the Office of the Inspector General, Office of Audit Services
Statistical software. We used the random number generator for our stratified random sample.
                                                                             APPENDIX A
                                                                               Page 2 of 2
METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the matched claims in Stratum 1 from 1 to 1,590. After generating
100 random numbers, we selected the corresponding matched claims in the sampling frame. We
selected all of the 10 payments in stratum 2.

ESTIMATION METHODOLOGY

We estimated the dollar value of improper demonstration project payments.
                                                           APPENDIX B 



       SAMPLE RESULTS AND ESTIMATES 


                    Sample Results 


                               Number of Value of
Stratum Sample Value of        Improper Improper
Number   Size  Sample          Payments Payments
   1      100   $5,107            100     $5,107
   2       10   12,480             10     12,480
 Total    110  $17,587            110    $17,587

                       Estimates

(Limits Calculated for a 90-Percent Confidence Interval)

                             Value of
                        Improper Payments
         Point Estimate       $93,680
         Lower Limit          $79,489
         Upper Limit         $107,872
                                                                                                                          APPENDIX C
                                                                                                                            Page 1 of 3



                                                                                                       fD)~©~D"~1nI
                                                   ~          of New
                                                 DEPARTMENT OF HUMAN SERVICES
                                                                             ~rsey                     ml         JUL 1 6 2009      /Ul
                                   DIVISION OF MEDICAL ASSISTANCE AND HEALTH SER                        ES
                                                               PO Box 712
JON S. CORZINE                                          TRENTON NJ     08625-0712                                           JENNIFER VELEZ
   Governor                                           TELEPHONE     1-800-356-1561                                           Commissioner
                                                                                                                             JOHN   R.   GUHL
                                                             July 17, 2009                                                       Director




                 Stephen Virbitsky
                 Department of Health and Human Services
                 Office of Inspector General
                 Regional Inspector General for Audit Services
                 150 S. Independence Mall West, Suite 316
                 Philadelphia, PA 19106-3499

                 Report Number: A-03-08-00011

                 Dear Mr. Virbitsky:

                 This is in response to your letter of June 1, 2009 to Commissioner Velez
                 concerning the Office of the Inspector General (DIG) draft audit report titled
                 "Review of Medicare Part 0 Payments to Baron Drug Company for Service Dates
                 January 1 - March 31, 2006". Your correspondence provides an opportunity to
                 comment on the draft audit report.

                 The draft audit report contains one finding and one recommendation. The
                 finding, recommendation and response of the Division of Medical Assistance and
                 Health Services (DMAHS) are provided below:

                 FiNDiNG
                 The audit report concludes that Baron Drug Company received payments from
                 Medicare Part 0 plan sponsors and DMAHS for the same prescription drug
                 events. This finding is based on a judgmental sample of claims paid by both
                 Medicare Part 0 plan sponsors and DMAHS.

                 DMAHS RESPONSE
                 Based on the information provided by the auditor, this finding appears irrefutable.
                 The payments analyzed by the auditor were drawn from a population comprised
                 entirely of claims paid by both programs. Consequently, the likelihood of finding
                 the pharmacy was paid by both programs is nearly certain.

                 RECOMMENDATION
                 The auditor recommends that New Jersey refund to CMS $79,489 in improper
                 demonstration project payments and recover the payments from Baron.


                           New Jersey Is An Equal Opportunity Employer •   Printed on Recycled Paper and Recyclable
                                                                                  APPENDIX C
                                                                                    Page 2 of 3



Stephen Virbitsky
July 17, 2009
Page 2




DMAHS RESPONSE
DMAHS does not concur with this recommendation. While this audit clearly
identifies duplicate payments to Baron Drug Company, there is no indication in
the aud it report that the DMAHS payments were not in compliance with the
applicable Medicare Demonstration Project. Additionally, all DMAHS payments
under the Medicare Demonstration Project were reconciled and approved by the
Centers for Medicare and Medicaid Services (CMS). Finally, DMAHS does not
possess the information needed to adequately identify or correct this type of
duplicate payment.

The audit indicates that Baron Drug Company acknowledged receipt of some
duplicate payments (100% of the sampled claims) from DMAHS and Medicare
despite specific contrary instructions. Unfortunately, the auditor did not confirm
the cause of the duplicate claims submitted by Baron Drug Company or their lack
of corrective action since March 31, 2006. Consequently, it appears this audit
report should be issued to the Baron Drug Company with the recommendation
they return the overpayments to Medicare and correct the procedures that
caused the duplicate payments.

The auditor's recommendation is based upon a small sample of the total claims
cited. While this extrapolation is useful to statistically estimate the amount of
duplicate payments, it is insufficient support for provider overpayment recoveries.
In the absence of the provider's acceptance of the results of the auditor's
extrapolation, it is unlikely DMAHS could prevail in the recovery of this amount.
DMAHS would probably be required to identify the duplicate payments on a claim
specific basis or litigate the specifics of the auditor's statistical extrapolation.
Neither approach is likely to succeed since DMAHS does not possess the
supporting information.

DMAHS payments to providers under the Medicare Demonstration Project were
conditioned on the inability of the provider to access the appropriate Medicare
Part D reimbursement. The audit report does not indicate whether Medicare Part
D payments were readily available to the provider at the time of the DMAHS
payment or if the Medicare payments were remitted later. Since the Medicare
Demonstration Project includes the Department of Health and Human Services
assurance that CMS will 'reconcile all DMAHS payments with the prescription
drug plans, it appears these Medicare payments to Baron Drug Company were
made subsequent to the DMAHS payment and the CMS Demonstration Project
reconciliation. It seems reasonable to assume CMS shared the DMAHS
payment information with the Medicare drug plans to recover their payments
made to the States and to preclude subsequent duplicate payments. This
indicates that duplicate payments were made by the Medicare Part D drug plans.
In this case, it appears the audit report should be issued to the applicable drug
                                                                                 APPENDIX C
                                                                                   Page 3 of 3



Stephen Virbitsky
July 17,2009
Page 3



plans with the recommendation they recover the overpayment from this provider
and review their records to recover any similar overpayments.

The methodology used in this audit shows that detailed payment information from
DMAHS and the Medicare Part D drug plans are readily available at eMS. The
auditor selected a sample of claims paid by both DMAHS and Medicare based
upon the Medicare prescription drug event records maintained by eMS. As a
result, it seems appropriate to issue the audit report to eMS with the
recommendation they recover this and any other overpayments from the
Medicare drug plans.

In summary, the contents of this draft audit report denote a significant financial
control weakness within the Medicare Program. Inappropriate provider conduct
is also suggested. These items represent significant concerns that warrant
additional investigation. Unfortunately, the audit report recommends corrective
action by the only entity that can not readily address these concerns. As a result,
DMAHS does not concur that corrective actions should be initiated by the State.
Instead, it seems more appropriate to suggest corrective action by the provider,
eMS, or the Medicare drug plans. Due to the serious concerns presented in this
report, DMAHS intends to forward a copy of the final audit report to the New
Jersey Office of the Medicaid Inspector General for review and evaluation.

If you have any questions or require additional information, please contact me or
David Lowenthal at 609-588-7933.

                                         Sincerely,



                                         Cf.:G~
                                         Director

JRG:L
c:    Jennifer Velez
      David Lowenthal
